CAT-CNS-0120

CARD AGREEMENT
This Card Agreement is your contract with us. It governs the use
of your card and account. The Supplemental Pricing Information
(“Supplement”) is part of this Agreement. Please read this
Agreement, including the Supplement, carefully. Keep them for
your records.

Definitions
account means the relationship established between you and us
by this Agreement.
APR means an annual percentage rate.
authorized user means any person you allow to use your
account.
card means one or more cards or other access devices that
we give you to get credit under this Agreement. This includes
account numbers.
we, us, and our mean Citibank, N.A., the issuer of your account.
Citibank, N.A. is located in Sioux Falls, SD.
you, your, and yours mean the person who applied to open
the account. It also means any other person responsible for
complying with this Agreement.

Your Account
You agree to use your account in accordance with this
Agreement. You must pay us for all amounts due on your
account. This Agreement is binding on you unless you close your
account within 30 days after receiving the card and you have not
used or authorized use of the card. Your account must only be
used for lawful transactions.
Authorized Users. You may request cards for authorized users.
You must pay us for any charges they make even if you did
not intend to be responsible for those charges. You agree that
they may receive information about the account, subject to any
limitations we impose. You must tell us if you no longer want
them to use your account.

1

Joint Accounts. If this is a joint account, each of you is
responsible individually and together for all amounts owed. Each
of you is responsible even if the account is used by only one of
you. You will continue to be liable for the entire balance of the
account, even if your co-applicant is ordered by a court to pay
us. You will remain liable to us if your co-applicant fails to pay
as ordered by the court. Your account status will continue to be
reported to the credit bureau under each of your names. The
delivery of notices or billing statements to either of you serves
as delivery to each of you. We may rely on instructions given by
either of you. We are not liable to either of you for relying upon
such instructions.
Credit Limit. Your credit limit appears on your billing statement.
The full amount of your credit limit is available to use where the
card is honored. We may reduce or increase your credit limit at
any time for any reason, as permitted by law. We will notify you
of any change, but the change may take effect before you receive
the notice. You should always keep your total balance below the
credit limit. However, if the total balance goes over your credit
limit you still must pay us. If your account has a credit balance,
we may reduce the credit balance by any new charges on your
account. You may not maintain a credit balance in excess of your
credit limit.
Billing Statement. Your billing statement shows the New
Balance. This is the total amount you owe us on the Statement
Closing Date. To determine the New Balance, we begin with
the total balance at the start of the billing cycle. We add any
purchases. We subtract any credits or payments. We then add
any interest charges or fees and make other adjustments.
Your billing statement also shows your transactions; the Minimum
Payment Due and payment due date; your credit limit; and your
interest charges and fees.
We deliver a billing statement to only one address. You must
notify Customer Service of a change in address. We may stop
sending you statements if we deem your account uncollectible or
start collection proceedings; but we may continue to add interest
and fees as permitted by law.

2

APRs
Variable APR Based on Prime. See the Supplement for
information about the APRs that apply to your account. If any
APR is based on the U.S. Prime Rate (“Prime Rate”), the APR
will equal the Prime Rate plus an additional amount. If the Prime
Rate increases, it will cause the APR to increase. If the Prime
Rate decreases, it will cause the APR to decrease. For each
billing cycle we use the Prime Rate published in The Wall Street
Journal two business days before the Statement Closing Date.
If the Prime Rate causes an APR to change, we put the new
APR into effect as of the first day of the billing cycle for which
we calculate the APR. We apply the new APR to any existing
balances, subject to any promotional rate that may apply. If The
Wall Street Journal does not publish the Prime Rate, we will use a
similar published rate.
Purchase APR. See the Supplement.
Effect of APR Increases. If an APR increases, interest charges
increase. Your minimum payment may increase as well.

Promotions
From time to time, we may make promotional offers for all or a
part of any balances. A promotional offer may apply for a limited
period of time. Each promotional offer will be governed by the
terms of that offer and this Agreement. We will tell you the terms
applicable to a promotional offer at the time we offer it to you.
For example:
• We may offer you a promotional APR on a specific purchase.
The promotional APR will apply for a specific period of time
and then expire to a higher APR (which may be lower than the
regular purchases APR). Before you make a purchase subject
to the offer, we will tell you the promotional APR and how long
it will apply. We will also tell you the APR that will apply after
the promotional APR expires. We call this type of promotional
offer a “Special Rate Plan.”
• If a promotional offer is a deferred interest offer, no interest
charges will be imposed on the deferred interest balance if you
pay the balance in full by the end of the promotional period.

3

CAT-CNS-0120
We will impose interest charges on the deferred interest
balance at the APR for regular purchases from the date of
purchase if you do not pay the balance in full by the end of the
promotional period. We call this type of promotional offer a
“Deferred Interest Plan.”
• We may offer you a promotional APR on a specific purchase.
The promotional APR will apply so long as any portion of that
purchase balance remains on the account. We call this type of
promotional offer a “Major Purchase Plan.”

Interest Charges Based on APRs
Interest Charges. We impose interest charges when we apply
APRs to your account balances. We do this every day by using a
daily periodic rate. To get a daily periodic rate, we divide the APR
by 365.
When Interest Charges Begin. We begin to impose interest
charges the first day we add a charge to a daily balance. The
charges we add to a daily balance include purchases, interest
charges and fees. We continue to impose interest charges until
we credit your account with full payment of the total amount you
owe us.
Grace Period on Purchases. You can avoid interest charges on
purchases. This is called a grace period on purchases. The grace
period is at least 25 days. To get a grace period on purchases,
you must pay the New Balance by the payment due date every
billing cycle. If you do not, you will not get a grace period until you
pay the New Balance for two billing cycles in a row.
You do not need to pay certain promotional purchase balances in
full by the payment due date each month to get a grace period on
your other purchase balances. On a particular payment due date,
you do not need to pay the following types of purchase balances
in full (“excluded balances”) to keep your grace period, as long
as you pay in full all other purchase balances on the account by
that due date:
• a Deferred Interest Plan balance if the promotional
period does not expire on or before that due date;
• a Special Rate Plan balance; and

4

• a Major Purchase Plan balance.
However, you must still pay any separately required minimum
monthly payment on each excluded balance. In billing cycles in
which payments are allocated to Deferred Interest Plan balances
first, those Deferred Interest Plan balances will be reduced before
any other balance on the account. However, you will continue
to get a grace period on purchases, other than an excluded
balance, so long as you pay the New Balance (less any excluded
balance, plus any separately required payment on an excluded
balance) in full by the payment due date every billing cycle.
Calculation of Interest Charges – Daily Balance Method
(Including Current Transactions). We calculate interest
charges each billing cycle. To do this:
• We start with each of your different balances. These balances
include, for example, regular purchases and balances in
different promotional plans. (When we calculate interest
charges, we treat each Deferred Interest Plan balance
separately even if it has the same terms as another Deferred
Interest Plan balance.)
• We calculate the daily balance for each of your different
balances. To get a daily balance, we start with the balance as
of the end of the previous day. We add any interest charge on
the previous day’s balance. (This results in daily compounding
of interest charges.) We add any new charges. We then
subtract any new credits or payments.
• We multiply each daily balance by the daily periodic rate that
applies to it. We do this for each day in the billing cycle. This
gives us the daily interest charges for each of your different
balances.
• We add up all the daily interest charges. The sum is the total
interest charge for the billing cycle.
• You authorize us to round interest charges to the nearest cent.
When we calculate daily balances, we add a purchase as of the
Transaction Date. The Transaction Date is shown on the billing
statement. We add a transaction fee to the same balance as the
transaction. We subtract a payment or credit as of the day it is

5

credited to the account and then make other adjustments. We
treat a credit balance as a balance of zero.
Minimum Interest Charge. If we charge you interest, the
charge will be no less than $2. We add the charge to the regular
purchase balance or allocate it among one or more of the
balances that accrues interest.
Balance Subject to Interest Rate. Your statement shows a
Balance Subject to Interest Rate. It shows this for each different
balance. The Balance Subject to Interest Rate is the average of
the daily balances during the billing cycle. A billing cycle begins
on the day after the Statement Closing Date of the previous billing
cycle. It includes the Statement Closing Date of the current billing
cycle.

Fees
Late Fee. We may add a late fee for each billing cycle in which
you have a past due payment. For late fee purposes, you have a
past due payment any time you fail to pay the Minimum Payment
Due by the payment due date. The fee will be $29; or $40 for
any additional past due payment during the next six billing cycles
after a past due payment. However, the fee will not exceed
the amount permitted by law. We add this fee to the regular
purchase balance.

Payments
Making Payments. You may pay all or part of your account
balance at any time. However, you must pay at least the
Minimum Payment Due by the payment due date each billing
cycle. The sooner you pay the New Balance, the less you will pay
in interest charges.
Minimum Payment Due. To calculate the Minimum Payment
Due each billing cycle, we begin with any past due amount. Then
we add the amount due on each Major Purchase Plan balance,
plus any amount required by the Promotion Calculation, plus any
amount due on each Special Rate Plan balance. We also add the
largest of the following:
• The Calculated New Balance if it is less than $29;
• $29 if the Calculated New Balance is at least $29; or

6

CAT-CNS-0120
• 1% of the Calculated New Balance plus the amount of your
billed interest charges on that balance, any minimum interest
charge allocated to that balance, and any applicable late fee
(the result is rounded up to the nearest dollar). However, we
subtract interest charges that accrued during prior billing
cycles on a Deferred Interest Plan balance that ended during
the billing cycle covered by the statement.
The Calculated New Balance equals the New Balance on the
billing statement, less any Major Purchase Plan balances, the
Promotion Calculation and any Special Rate Plan balances.
The Minimum Payment Due may reflect adjustments to the New
Balance. The Minimum Payment Due is never more than the
Calculated New Balance plus three amounts. The first is any
amount required by a Major Purchase Plan. The second is any
amount required by the Promotion Calculation. The third is any
amount required by a Special Rate Plan.
Major Purchase Plan. The Minimum Payment Due will include
any amount due on a Major Purchase Plan balance. You must
pay the amount due on a Major Purchase Plan balance, as
described below, for so long as any portion of that balance
remains in that Major Purchase Plan. However, the amount due
on a Major Purchase Plan balance will never be more than the
amount of that balance on the Statement Closing Date.
The amount due on each Major Purchase Plan balance each
billing cycle is determined as follows:
• The purchase amount plus,
• Interest charges calculated on the daily balance from the
date of purchase through the end of the promotional period
(assuming that you pay the Minimum Payment Due on your
account each month on the due date), the sum of which is
divided by
• The number of months in the promotional period. (The result is
rounded up to the nearest dollar.)
The formula we use for determining the amount described
directly above is:
• the purchase amount, multiplied by

7

• (APR / 12 ) / (1-(1 + APR / 12 ) -N ), rounded up to the nearest
dollar. “APR” equals the specific APR applicable to the
purchase amount, and “N” equals the number of months in
the promotional period.
Promotion Calculation. The Minimum Payment Due will include
any amount required by the Promotion Calculation. If you have a
Deferred Interest Plan subject to the Promotion Calculation, the
Promotion Calculation will equal 1% of this balance during the
promotion period. (The result is rounded up to the nearest cent.)
After the promotion period, any such remaining promotional
balance will be included in the Calculated New Balance. The
Promotion Calculation will apply if, based on the amount of the
transaction as shown on the first statement that displays the
transaction and the dollar amount in the Minimum Payment Due
calculation in effect at the time of the transaction, we determined
that paying such dollar amount each billing cycle would result
in repayment of the promotional balance before the end of the
promotion period.
Special Rate Plan. The Minimum Payment Due will include any
amount due on a Special Rate Plan balance. The amount due on
each Special Rate Plan balance equals 1% of the Special Rate
Plan balance, plus the amount of your billed interest charges on
that balance, if any, and any minimum interest charge allocated
to that balance. (The result is rounded up to the nearest dollar.)
You must pay the amount due on a Special Rate Plan balance as
described above until that balance is paid in full.
Application of Payments. Payments in excess of the Minimum
Payment Due are applied in accordance with law. This means
that we will generally apply payments in excess of the Minimum
Payment Due to higher APR balances first. However, excess
payments received before a Deferred Interest Plan expires are
applied to the Deferred Interest Plan balance first in the last two
billing cycles of the promotional period. Payments equal to or
less than the Minimum Payment Due and credits are applied
at our discretion and you authorize us to apply payments and
credits in a way that is most favorable or convenient for us. This
may include applying such payments and credits to lower APR
balances first.

8

Payment Instructions. We credit your payments in accordance
with our payment instructions on the billing statement. You must
pay us in U.S. dollars. To do so, you must use a check, similar
instrument, or electronic debit that is drawn on and honored
by a bank in the U.S. Do not send cash. We can accept late or
partial payments, or payments that reflect “paid in full” or other
restrictive endorsements, without losing our rights. We also
reserve the right to accept payments made in foreign currency
and instruments drawn on funds on deposit outside the U.S. If
we do, we select the currency conversion rate. We will then credit
your account in U.S. dollars after deducting any costs incurred in
processing your payment. Or we may bill you separately for these
costs.

Credit Reporting
We may report information about your account to credit bureaus.
Late payments, missed payments, or other defaults on your
account may be reflected in your credit report. We may report
account information in your name. We may also obtain follow-up
credit reports on you.
If you think we reported incorrect information to a credit
bureau, write us at the Customer Service address on the billing
statement. We will investigate the matter. We will then tell you
if we agree or disagree with you. If we agree with you, we will
contact each credit bureau to which we reported and request a
correction. If we disagree with you, we will tell you that.

Information Sharing
You authorize us to share information about you as permitted
by law. This includes information we get from you and others. It
also includes information about your transactions with us. Please
see our Privacy Notice for details about our information sharing
practices.

Changes to this Agreement
We may change the rates, fees, and terms of this
Agreement from time to time as permitted by law. The
changes may add, replace, or remove provisions of this
Agreement. We will give you advance written notice of the
changes and a right to opt out to the extent required by
law.

9

CAT-CNS-0120

Default
You default under this Agreement if you fail to pay the Minimum
Payment Due by its due date; go over your credit limit; pay by a
check or similar instrument that is not honored or that we must
return because it cannot be processed; pay by electronic debit
that is returned unpaid; file for bankruptcy; or fail to comply with
the terms of this Agreement. If you default, we may close your
account and, to the extent permitted by law, demand immediate
payment of the total balance.

Refusal of the Card, Closed Accounts,
and Related Provisions
Refusal of the Card. We do not guarantee approval of
transactions. We are not liable for transactions that are not
approved. That is true even if you have enough credit. We may
limit the number of transactions approved in one day. If we
detect unusual or suspicious activity, we may suspend your credit
privileges.
Preauthorized Charges. We may suspend any automatic or
other preauthorized card charges you arrange with a third party.
We may do this if you default; if the card is lost or stolen; or
we change your account for any reason. If we do this, you are
responsible for paying the third party directly if you wish to do so.
You are also responsible for reinstating the preauthorized charges
if you wish to do so and we permit it.
Lost or Stolen Cards or Account Numbers. You must call us
if any card or account number is lost or stolen. You must also
call us if you think someone used or may use them without
permission. When you call, we may require you to provide
information to help our investigation. We may require you to
provide this information in writing. For example, we may ask you
to identify any charges that were not made by you or someone
authorized by you. We may also ask you to confirm that you
received no benefit from those charges.
Closing Your Account. You may close your account by notifying
us in writing or over the phone. If you close your account,
you must still repay the total balance in accordance with this
Agreement. We may also close your account or suspend account
privileges at any time for any reason. We may do this without

10

prior notice to you. We may also reissue a different card at any
time. You must return any card to us upon request.

Protections for Active Duty Service
Members and Their Dependents
Protections. Federal law provides important protections to
members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his
or her dependent may not exceed an annual percentage
rate of 36 percent. This rate must include, as applicable to
the credit transaction or account: The costs associated with
credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit
transactions or accounts); and any participation fee charged
(other than certain participation fees for a credit card account).
You are entitled to these protections if you are a Covered
Borrower, as defined below.
Covered Borrower. You are a Covered Borrower if, in connection
with the opening of your account, we determine you are an active
duty member of the Armed Forces (including active Guard and
Reserve duty) or a dependent of an active duty member. You
will cease to be a Covered Borrower if we determine you are no
longer an active duty member of the Armed Forces (including
active Guard and Reserve duty) or a dependent of an active duty
member.
Oral Disclosures. If you are a Covered Borrower, you may obtain
information related to your account, including information about
these protections and your payment obligation, by calling 1-877625-6379.
Arbitration. The section of the Card Agreement entitled
“ARBITRATION” does not apply if you are a Covered
Borrower at the time your account is opened.

ARBITRATION
PLEASE READ THIS PROVISION OF THE AGREEMENT
CAREFULLY.

11

THIS SECTION PROVIDES THAT DISPUTES MAY BE
RESOLVED BY BINDING ARBITRATION. ARBITRATION
REPLACES THE RIGHT TO GO TO COURT, HAVE A JURY
TRIAL OR INITIATE OR PARTICIPATE IN A CLASS ACTION.
IN ARBITRATION, DISPUTES ARE RESOLVED BY AN
ARBITRATOR, NOT A JUDGE OR JURY. ARBITRATION
PROCEDURES ARE SIMPLER AND MORE LIMITED THAN
IN COURT. THIS ARBITRATION PROVISION IS GOVERNED
BY THE FEDERAL ARBITRATION ACT (FAA), AND SHALL
BE INTERPRETED IN THE BROADEST WAY THE LAW WILL
ALLOW.

Covered claims
• You or we may arbitrate any claim, dispute or controversy
between you and us arising out of or related to your account, a
previous related account or our relationship (called “Claims”).
• If arbitration is chosen by any party, neither you nor we
will have the right to litigate that Claim in court or have a
jury trial on that Claim.
Except as stated below, all Claims are subject to arbitration,
no matter what legal theory they’re based on or what remedy
(damages, or injunctive or declaratory relief) they seek, including
Claims based on contract, tort (including intentional tort), fraud,
agency, your or our negligence, statutory or regulatory provisions,
or any other sources of law; Claims made as counterclaims,
cross-claims, third-party claims, interpleaders or otherwise;
Claims made regarding past, present, or future conduct; and
Claims made independently or with other claims. This also
includes Claims made by or against anyone connected with us
or you or claiming through us or you, or by someone making a
claim through us or you, such as a co-applicant, authorized user,
employee, agent, representative or an affiliated/parent/subsidiary
company.

Arbitration limits
• Individual Claims filed in a small claims court are not subject to
arbitration, as long as the matter stays in small claims court.
• We won’t initiate arbitration to collect a debt from you unless
you choose to arbitrate or assert a Claim against us. If
you assert a Claim against us, we can choose to arbitrate,
12

CAT-CNS-0120
including actions to collect a debt from you. You may arbitrate
on an individual basis Claims brought against you, including
Claims to collect a debt.
• Claims brought as part of a class action, private attorney
general or other representative action can be arbitrated only
on an individual basis. The arbitrator has no authority to
arbitrate any claim on a class or representative basis and may
award relief only on an individual basis. If arbitration is chosen
by any party, neither you nor we may pursue a Claim as part
of a class action or other representative action. Claims of 2 or
more persons may not be combined in the same arbitration.
However, applicants, co-applicants, authorized users on a
single account and/or related accounts, or corporate affiliates
are here considered as one person.

How arbitration works
• Arbitration shall be conducted by the American Arbitration
Association (“A AA”) according to this arbitration provision and
the applicable A AA arbitration rules in effect when the claim is
filed (“A AA Rules”), except where those rules conflict with this
arbitration provision. You can obtain copies of the A AA Rules
at the A AA’s website (w w w.adr.org) or by calling 800-7787879. You or we may choose to have a hearing, appear at
any hearing by phone or other electronic means, and/or be
represented by counsel. Any in-person hearing will be held in
the same city as the U.S. District Court closest to your billing
address.
• Arbitration may be requested any time, even where there is a
pending lawsuit, unless a trial has begun or a final judgment
entered. Neither you nor we waive the right to arbitrate by
filing or serving a complaint, answer, counterclaim, motion, or
discovery in a court lawsuit. To choose arbitration, a party may
file a motion to compel arbitration in a pending matter and/or
commence arbitration by submitting the required A AA forms
and requisite filing fees to the A AA.
• The arbitration shall be conducted by a single arbitrator in
accord with this arbitration provision and the A AA Rules, which

13

may limit discovery. The arbitrator shall not apply any federal
or state rules of civil procedure for discovery, but the arbitrator
shall honor claims of privilege recognized at law and shall take
reasonable steps to protect account information and other
confidential information of either party if requested to do so.
The arbitrator shall apply applicable substantive law consistent
with the FA A and applicable statute of limitations, and may
award damages or other relief under applicable law.
• The arbitrator shall make any award in writing and, if
requested by you or us, may provide a brief statement of
the reasons for the award. An arbitration award shall decide
the rights and obligations only of the parties named in the
arbitration, and shall not have any bearing on any other person
or dispute.

Paying for arbitration fees
• We will pay your share of the arbitration fee for an arbitration
of Claims of $75,000 or less if they are unrelated to debt
collection. Otherwise, arbitration fees will be allocated
according to the applicable A AA Rules. If we prevail, we may
not recover our arbitration fees, unless the arbitrator decides
your Claim was frivolous. All parties are responsible for their
own attorney’s fees, expert fees and any other expenses,
unless the arbitrator awards such fees or expenses to you or
us based on applicable law.

The final award
• Any award by an arbitrator is final unless a party appeals it
in writing to the A AA within 30 days of notice of the award.
The arbitration appeal shall be determined by a panel of 3
arbitrators. The panel will consider all facts and legal issues
anew based on the same evidence presented in the prior
arbitration, and will make decisions based on a majority vote.
Arbitration fees for the arbitration appeal shall be allocated
according to the applicable A AA Rules. An award by a panel
on appeal is final. A final award is subject to judicial review as
provided by applicable law.

14

Survival and Severability of Terms
This arbitration provision shall survive changes in this Agreement
and termination of the account or the relationship between
you and us, including the bankruptcy of any party and any
sale of your account, or amounts owed on your account, to
another person or entity. If any part of this arbitration provision
is deemed invalid or unenforceable, the other terms shall
remain in force, except that there can be no arbitration of a
class or representative Claim. This arbitration provision may
not be amended, severed or waived, except as provided in this
Agreement or in a written agreement between you and us.

Rules for rejecting this arbitration provision
You may reject this arbitration provision by sending a written
rejection notice to us at: P.O. Box 790340, St. Louis, MO
63179. Your rejection notice must be mailed within 45 days
of account opening. Your rejection notice must state that you
reject the arbitration provision and include your name, address,
account number and personal signature. No one else may sign
the rejection notice. Your rejection notice will not apply to the
arbitration provision(s) governing any other account(s) that you
have or had with us. Rejection of this arbitration provision won’t
affect your other rights or responsibilities under this Agreement,
including use of the account.

Governing Law and Enforcing our Rights
Governing Law. Federal law and the law of South Dakota,
where we are located, govern the terms and enforcement of this
Agreement.
Enforcing this Agreement. We will not lose our rights under
this Agreement because we delay in enforcing them or fail to
enforce them.
Collection Costs. To the extent permitted by law, you are liable
to us for our legal costs if we refer collection of your account
to a lawyer who is not our salaried employee. These costs may
include reasonable attorneys’ fees. They may also include costs
and expenses of any legal action.

15

CAT-CNS-0120
Assignment. We may assign any or all of our rights and
obligations under this Agreement to a third party.

For Further Information
Call us toll-free for further information. Call the toll-free Customer
Service telephone number shown on the billing statement or on
the back of your card. You can also call local or toll-free Directory
Assistance to get our telephone number.

Your Billing Rights:
Keep this Document for Future Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.

What To Do If You Find A Mistake On Your Statement

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you
as delinquent on that amount.
• The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.

Your Rights If You Are Dissatisfied
With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company
that sold you the goods or services.)

If you think there is an error on your statement, write to us at the
address for billing inquiries and correspondence shown on the
front of your statement.

• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.

In your letter, give us the following information:

After we finish our investigation, one of two things will happen:

3. You must not yet have fully paid for the purchase.

• Account information: Your name and account number.

• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.

If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at the address for
billing inquiries and correspondence shown on the front of your
statement.

• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.

• If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe
and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and
we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill is
correct.

16

17

While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.
© 2020 Citibank, N.A.
CAT-CNS-0120

